Inspection of the Violent Crime Task Forces in the Southern District of New York
Return
to the USDOJ/OIG Home Page
Inspection of the Violent Crime Task Forcesin the Southern District of New York
Report Number I-2000-03
TABLE OF CONTENTS
EXECUTIVE DIGEST
COVER LETTER
INTRODUCTION
Attorney General's National Anti-Violent Crime Initiative
VCTF Program
The USAO CVTF Proposals
USAO Asian Gang VCTF
USAO Latin Kings VCTF
DEA New York City Housing Authority VCTF
FBI VCTFs
RESULTS OF THE INSPECTION
ASIAN GANG VCTF ACCOMPLISHMENTS
USAO Expanded Unified Asian Intelligence Database into a Photo-Imaging System
PIMS Does Not Meet Funding Criteria
CONCLUSION
LATIN KINGS VCTF ACCOMPLISHMENTS
USAO Denied the FBI Overtime Funding for Latin Kings Investigations
USAO Developed a Case and Cooperator Mapping System
CONCLUSION
DEA HOUSING AUTHORITY VCTF ACCOMPLISHMENTS
DEA Did Not Notify USAO of Task Force End
USAO Obtained Support Staff for the DEA
Data Analysts Worked on Non-Housing Authority VCTF Cases
CONCLUSION
FBI VCTFs ACCOMPLISHMENTS>
CONCLUSION
ADMINISTRATIVE AND FINANCIAL CONTROLS OVER THE VCTFs
USAO Did Not Properly Account for VCTF Property
USAO Failed to Perform Security Background Investigation
Quarterly Report Data Inaccurate and Incomplete
RECOMMENDATIONS
OVERSIGHT OF THE VCTFs
RECOMMENDATIONS
EOUSA DELEGATION OF AUTHORITY
APPENDIX I  Inspection Objectives, Scope, And Methodology
APPENDIX II  Index of Abbreviations
APPENDIX III    USAO's Comments on the Draft Report
APPENDIX IV    EOUSA's Comments on the Draft Report
APPENDIX V     DEA's Comments on the Draft Report
APPENDIX VI    FBI's Comments on the Draft Report
APPENDIX VII   Office of the Inspector General's Analysis of Managements' Responses